Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



SUNSET PARK HEALTH COUNCIL
   DID NOT ALWAYS CLAIM
   RECOVERY ACT COSTS IN
 ACCORDANCE WITH FEDERAL
       REQUIREMENTS



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                           James P. Edert
                                      Regional Inspector General

                                              March 2013
                                             A-02-11-02018
                    Office of Inspector General
                                     https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program. The Health Center Program provides grants to
nonprofit private or public entities that serve designated medically underserved populations and
areas, as well as vulnerable populations of migrant and seasonal farm workers, the homeless, and
residents of public housing.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Capital Improvement Program (CIP), and
Increased Demand for Services (IDS) grants.

The Sunset Park Health Council (Sunset Park), a nonprofit organization, is the governing board
for Lutheran Family Health Centers, a network of 9 primary care sites, 31 school-based health
and dental clinics, and 3 daycare centers.

Sunset Park reported approximately $442 million in revenue from all funding sources during
calendar years 2009 through 2011, including $4,204,183 awarded by HRSA. Of this amount,
$3,015,385 was awarded under CIP grants to make improvements to existing facilities and
$1,188,798 was awarded under IDS grants to increase access and reduce barriers to health care
within Sunset Park’s service area. Sunset Park claimed $2,914,387 of the $4,204,183 awarded.

Sunset Park must comply with Federal cost principles in 2 CFR part 230, Cost Principles for
Non-Profit Organizations; the requirements for health centers in 42 U.S.C. § 254(b); and the
financial management system requirements in 45 CFR § 74.21.

Pursuant to 2 CFR part 230, Appendix A, § A.2,g, costs must be adequately documented to be
allowable under an award. Pursuant to 2 CFR part 230, Appendix B, §§ 8.b and 8.m, for salaries
and wages to be allowable for Federal reimbursement, grantees must maintain personnel activity
reports that reflect the distribution of activity of each employee whose compensation is charged,
in whole or in part, directly to Federal awards.




                                                i
OBJECTIVE

Our objective was to determine whether costs claimed by Sunset Park were allowable under the
terms of the grants and applicable Federal requirements.

SUMMARY OF FINDINGS

Sunset Park did not always claim Recovery Act costs that were allowable under the terms of the
grant and applicable Federal requirements. Of the $2,605,480 in costs that we reviewed, Sunset
Park claimed unallowable salary costs totaling $904,855 for employees whose salaries were
charged to one of Sunset Park’s IDS Recovery Act grants but for whom Sunset Park did not
maintain personnel activity reports. Sunset Park officials believed they were not required to
maintain personnel activity reports for these employees because, they stated, the employees
worked for and were solely funded by this IDS grant.

RECOMMENDATIONS

We recommend that HRSA:

   •	 require Sunset Park to refund $904,855 to the Federal Government or work with Sunset
      Park to determine whether any of these costs that it claimed against one of its IDS grants
      (grant number H8BCS12379) were allowable and

   •	 educate Sunset Park officials on Federal requirements for supporting salaries and wages
      and ensure that Sunset Park maintains personnel activity reports for each employee who
      works on Federal awards.

SUNSET PARK HEALTH COUNCIL COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Sunset Park disagreed with our finding. Specifically,
Sunset Park stated that reports produced by its timekeeping and cost allocation system satisfied
requirements for maintaining personnel activity reports. Nevertheless, Sunset Park indicated that
it has created a “more specific timekeeping system which will enhance the tracking of personnel
activity efforts to specific grants.”

After reviewing Sunset Park’s comments, we maintain that our finding and recommendations are
valid. Federal regulations require salary costs to be supported by personnel activity reports that
reflect the distribution of activity of each employee whose compensation is charged, in whole or
in part, directly to Federal awards. These reports must be signed by the employee or a
supervisory official having firsthand knowledge of the employee’s activities, be prepared at least
monthly, coincide with one or more pay periods, and account for the total activity of the
employee. Sunset Park’s timekeeping and cost allocation system did not produce reports that
met these requirements.

Sunset Park’s comments are included in their entirety as Appendix A.


                                                ii
HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, HRSA concurred with our recommendation that it
require Sunset Park to refund $904,855 to the Federal Government or work with Sunset Park to
determine whether any of the costs that Sunset Park claimed against one of its IDS grants (grant
number H8BCS12379) were allowable. HRSA also concurred with our recommendation to
educate Sunset Park officials on Federal requirements for supporting salaries and wages and
ensure that Sunset Park maintains personnel activity reports for each employee who works on
Federal awards.

HRSA’s comments are included in their entirety as Appendix B.




                                               iii
                                                  TABLE OF CONTENTS


                                                                                                                                      Page

INTRODUCTION........................................................................................................................ 1


          BACKGROUND ............................................................................................................... 1

              Health Center Program .......................................................................................... 1

              American Recovery and Reinvestment Act of 2009.............................................. 1

              Sunset Park Health Council ................................................................................... 1

              Federal Requirements for Grantees ....................................................................... 2


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................. 2

               Objective ................................................................................................................ 2

               Scope ...................................................................................................................... 2

               Methodology .......................................................................................................... 2


FINDINGS AND RECOMMENDATIONS .............................................................................. 3


          UNALLOWABLE EXPENDITURES CLAIMED 

           FOR FEDERAL REIMBURSEMENT .......................................................................... 3

               Federal Requirements ............................................................................................ 3

               Salary Costs ........................................................................................................... 4


          RECOMMENDATIONS ................................................................................................... 4


SUNSET PARK HEALTH COUNCIL COMMENTS AND 

 OFFICE OF INSPECTOR GENERAL RESPONSE............................................................ 4


HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS AND

 OFFICE OF INSPECTOR GENERAL RESPONSE............................................................ 5


APPENDIXES

          A: SUNSET PARK HEALTH COUNCIL COMMENTS

          B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                     iv
                                            INTRODUCTION


BACKGROUND

Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to non-profit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing. Health
centers funded by HRSA are community-based and patient-directed organizations meeting the
definition of “health center” under 42 U.S.C. § 254b(a).

American Recovery and Reinvestment Act of 2009

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations.

HRSA awarded a number of grants using Recovery Act funding in support of the Health Center
Program, including Capital Improvement Program (CIP) and Increased Demand for Services
(IDS) grants.

Sunset Park Health Council

Sunset Park Health Council (Sunset Park), a nonprofit organization, is the governing board for
Lutheran Family Health Centers, a network of 9 primary care sites, 31 school-based health and
dental clinics, and 3 daycare centers.

Sunset Park reported approximately $442 million in revenue from all funding sources during
CY 2009 through 2011, including $4,204,183 awarded by HRSA. Of this amount, $3,015,385
was awarded under CIP grants to make improvements to existing facilities and $1,188,798 was
awarded under IDS grants to increase access and reduce barriers to health care within Sunset
Park’s service area. 1 Sunset Park claimed $2,914,387 of the $4,204,183 awarded.


1
 The grant budget periods for the CIP grants awarded were: June 29, 2009, through June 28, 2011, and March 1,
2011, through June 28, 2011. The grant budget periods for the IDS grants awarded were: March 27, 2009, through
March 26, 2011, and November 1, 2010, through March 26, 2011.


                                                       1

Federal Requirements for Grantees

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS grants and agreements awarded to nonprofit organizations. As a
nonprofit organization in receipt of Federal funds, Sunset Park must comply with Federal cost
principles in 2 CFR pt. 230, Cost Principles for Non-Profit Organizations (formerly Office of
Management and Budget Circular A-122), incorporated by reference at 45 CFR § 74.27(a).
These cost principles specify the criteria that costs must meet to be reasonable, allocable, and
otherwise allowable. The HHS awarding agency may include additional requirements that are
considered necessary to attain the award’s objectives.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by Sunset Park were allowable under the
terms of the grants and applicable Federal requirements.

Scope

We reviewed selected costs of $1,416,682 under the CIP grants and $1,188,798 under the IDS
grants, or $2,605,480 of the $2,914,387 claimed by Sunset Park during grant performance
periods starting as early as March 27, 2009, and ending as late as June 28, 2011. 2 We did not
perform an overall assessment of Sunset Park’s internal control structure. Rather, we reviewed
only the internal controls related to our objective.

We performed our fieldwork at Sunset Park’s administrative offices in Brooklyn, New York.

Methodology

To accomplish our objective, we:

    •	 reviewed relevant Federal laws, regulations, and guidance;

    •	 obtained and reviewed Sunset Park’s Recovery Act grant application packages and
       HRSA’s Notices of Grant Award;

    •	 interviewed Sunset Park personnel to gain an understanding of Sunset Park’s accounting
       system, internal controls over Federal expenditures, and CIP and IDS grant activities;

    •	 reviewed Sunset Park’s independent auditor’s reports and related financial statements for
       calendar years 2008 through 2011;



2
 Sunset Park was awarded a total of $4,204,183 in CIP and IDS grants for the period March 27, 2009 through
June 28, 2011.


                                                       2

   •	 compared budgeted amounts to actual grant expenditures and analyzed discrepancies;

   •	 obtained a list of the grantee’s drawdowns and compared them with the amounts

      expended to ensure that drawdowns did not exceed expenditures;


   •	 reconciled grant expenditures to Federal financial reports;

   •	 selected and reviewed a judgmental sample of 236 transactions totaling $2,605,480,
      based on transaction amount, description, and timing of costs;

   •	 analyzed selected expenditures for allowability; and

   •	 discussed our results with Sunset Park officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

Sunset Park did not always claim Recovery Act costs that were allowable under the terms of the
grant and applicable Federal requirements. Of the $2,605,480 in costs that we reviewed, Sunset
Park claimed unallowable salary costs totaling $904,855 for employees whose salaries were
charged to one of Sunset Park’s IDS Recovery Act grants (grant number H8BCS12379) but for
whom Sunset Park did not maintain personnel activity reports. Sunset Park officials believed
they were not required to maintain personnel activity reports for these employees because, they
stated, the employees worked for and were solely funded by this IDS grant.

UNALLOWABLE EXPENDITURES CLAIMED FOR FEDERAL REIMBURSEMENT

Federal Requirements

Pursuant to 2 CFR part 230, Appendix A, § A.2,g, costs must be adequately documented to be
allowable under an award. Pursuant to 2 CFR part 230, Appendix B, §§ 8.b and 8.m, for salaries
and wages to be allowable for Federal reimbursement, grantees must maintain personnel activity
reports that reflect the distribution of activity of each employee whose compensation is charged,
in whole or in part, directly to Federal awards. These reports must be signed by the employee or
a supervisory official having firsthand knowledge of the employee’s activities, be prepared at
least monthly, coincide with one or more pay periods, and account for the total activity of the
employee.




                                                3

Salary Costs

Sunset Park claimed unallowable salary costs totaling $904,855 for employees whose salaries
were charged to one of Sunset Park’s IDS grants (grant number H8BCS12379) but for whom
Sunset Park did not maintain personnel activity reports, as required by 2 CFR part 230,
Appendix B, §§ 8.b and 8.m. Specifically, the employees whose salaries were charged to this
Sunset Park IDS grant did not complete personnel activity reports of their actual activity. Sunset
Park officials were aware of the requirement to maintain personnel activity reports of the actual
activity for employees who worked on Federal awards; however, they stated they believed that
they were not required to maintain the reports for these employees because the employees
worked for and were solely funded by this IDS grant.

RECOMMENDATIONS

We recommend that HRSA:

    •	 require Sunset Park to refund $904,855 to the Federal Government or work with Sunset
       Park to determine whether any of these costs that it claimed against one of its IDS grants
       (grant number H8BCS12379) were allowable and

    •	 educate Sunset Park officials on Federal requirements for supporting salaries and wages
       and ensure that Sunset Park maintains personnel activity reports for each employee who
       works on Federal awards.

SUNSET PARK HEALTH COUNCIL COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Sunset Park disagreed with our finding. Specifically,
Sunset Park stated that reports produced by its timekeeping and cost allocation system satisfied
requirements for maintaining personnel activity reports. Nevertheless, Sunset Park indicated that
it has created a “more specific timekeeping system which will enhance the tracking of personnel
activity efforts to specific grants.”

After reviewing Sunset Park’s comments, we maintain that our finding and recommendations are
valid. Federal regulations require salary costs to be supported by personnel activity reports that
reflect the distribution of activity of each employee whose compensation is charged, in whole or
in part, directly to Federal awards. These reports must be signed by the employee or a
supervisory official having firsthand knowledge of the employee’s activities, be prepared at least
monthly, coincide with one or more pay periods, and account for the total activity of the
employee. Sunset Park’s timekeeping and cost allocation system did not produce reports that
met these requirements. 3

Sunset Park’s comments are included in their entirety as Appendix A.


3
 We did not review Sunset Park’s revised timekeeping system because it was created after the completion of our
audit.


                                                        4

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, HRSA concurred with our recommendation that it
require Sunset Park to refund $904,855 to the Federal Government or work with Sunset Park to
determine whether any of the costs that Sunset Park claimed against one of its IDS grants (grant
number H8BCS12379) were allowable. HRSA also concurred with our recommendation to
educate Sunset Park officials on Federal requirements for supporting salaries and wages and
ensure that Sunset Park maintains personnel activity reports for each employee who works on
Federal awards.

HRSA’s comments are included in their entirety as Appendix B.




                                                5

APPENDIXES

                                                                                                                         Page 1 of 2


           APPENDIX A: SUNSET PARK HEALTH COUNCIL COMMENTS


.,


                    Lutheran                                                                 150 55th . Street
                                                                                             Brooklyn, NY 1 1220- 2574
                    Family Health Centers.                                                   Telephone: 7 1B-630 -7000


                                                    December 10, 2012

          Mr. James P. Edert
          Regional Inspector General
           For Audit Services
          Office of Inspector General
          Office of Audit Services, Region II
          Jacob K. Javits Federal Building
          26 Federal Plaza, Room 3900
          New York, NY 10278
                                                   Report Number: A-02-11-02018

          Dear Mr. Edert,

                   Thank you for your letter and report of December 5, 2012 and for the opportunity to respond
          and comment to the report before it is filed with the Health Resources and Services Administration.

                   As indicated in the report under the American Recovery and Reinvestment Act of 2009 (ARRA),
          Sunset Park received both a Capital Improvement Program (CIP), and an Increased Demand for Services
          (IDS) grant. As also indicated in the report, the aim of this funding was to expand the Health Center
          Program by serving more patients, stimulating new jobs, and meeting the expected increase in demand
          for primary health care services among the Nation's uninsured and underserved populations. Based on
          these guidelines, Sunset Park proposed and was awarded the IDS grant with the primary purpose of
          retaining recently hired Primary Care providers who were slated for layoff in 2009-2010. The identified
     t                                                                                                          and
                               worked 100% of their time for Sunset Park. Their only job was to see patients, and
          they were located at delivery sites that have significant rising rates of uninsured patients which
          considerably reduces our ability to collect any visit/patient related revenue. Compounded with
          reductions in City, State and Private funding, without IDS funding Sunset Park would have been forced to
          proceed with the layoffs of these individuals.



                   In response to the auditors' findings that "Sunset Park claimed unallowable salaries costs
          totaling $904,855 for employees whose salaries were charged to one of Sunset Park's IDS Recovery Act
          grants but for whom :>unset Park did root maintain per~onnel activity reports," we would like to clarify
          our position and response to this finding as follows :

                  Sunset Park has a timekeeping and cost allocation system called KRONOS which is used network
          wide. This electronic system combines an employee's Identification Card and a fingerprinting system.
          Every location throughout the network has timekeeping clocks. Each employee swipes his/her card and
          then presses a fi nger, so the fingerprint gets scanned. Every day, all employees swipe their cards at the



 1·      Office of Inspector General note: Potentially identifYing infonnation has been redacted .
                                                                                                             Page 2 of 2





Page 2- Mr. James P. Edert                                         Report Number: A-()2-11·02018


start and end of their work day, which registers the following: 1) time and attendance, and 2) the
department and work location. The system has the ability to allocate employees' time to two or more
project ccst cc.-:t<:rs (grants) shcu!ct the r.eed arise (that is if the employee works for more than one
project at the time). Each department has time keepers whose job is to monitor the daily accuracy of
the time keeping, and time allocation activity. Furthermore, the work of the time keepers is then
reviewed and approved bi-weekly by a Supervising Department Head before the time, attendance and
allocation reports are submitted to payroll. The KRONOS system further provides a labor distribution
report which reconciles the hours worked to the department and/or grant. The doctors funded by the
IDS grant were recorded by Kronos, the Labor Distribution Report, the time keeper and ultimately
approved by the Department Heads, as working 100% of the time to fulfill the purpose of the IDS grant,
which was to continue to see mostly uninsured and underinsured patients. For this reason, we
believed that our Kronos system, and its corresponding Labor Distribution Reports which tie into the
General Ledger system and are approved by Department Heads, were sufficient to satisfy the personnel
activity report for these employees.

          These KRONOS reports, Labor Distribution Reports and General Ledger reports were provided
during the audit as attestation that these primary care doctors' solely worked for this grant, therefore
fulfilling the personnel activity requirement for allowable costs under this grant. Respectfully, it was
our belief that this was sufficient documentation as to maintain personnel activity reporting for the
grant, and therefore to proof that these are allowable costs. With the request set forth by the
recommendation from the auditors during their visit to us, we have since then created a more specific
time keeping system which will enhance the tracking of personnel activity efforts to specific grants.
We, hov;evc r, !ook forward to further guidance on how other organizations take care of this task, so we
can further improve our personnel activity reports.

          I would like to take this opportunity to point out that besides this finding; we believe that we
fulfilled the aim of the IDS grant. As aforementioned, the aim was to be able to expand the Health
Center Program by serving more patients, stimulating new jobs, and meeting the expected increase in
demand for primary health care services among the Nation's uninsured and underserved populations.
The IDS funding allowed us to retain these much needed Primary Care providers, therefore
creating/saving jobs and also these providers served mostly uninsured and underinsured patients
therefore fulfilling the requirements of the grant.

       Please do not hesitate to contact me if there is any question, or if we can provide further
information or clarification. My contact information via e-mail is astridgonzalez@lmcmc.co.!JJ., or via
phone: 718-630-8973. Thank you.




                                                  Astrid P. Gonzalez
                                                  Senior Vice President of Finance
                                                  Lutheran Family Health Centers

Cc: larry McReynolds
    Executive Vice President/ Executive Director
    lutheran Family Health Centers
                                                                                                 Page 1 of 2


        APPENDIX B: HEALTH RESOURCES AND SERVICES
                ADMINISTRATION COMMENTS

                                                                        Health Resources and Services
  DEPARTMENT OF HEALTH&. HUMAN SERVICES                                 Administration


                                                                        Rockville MD 20857




TO:           Inspector General

FROM:         Administrator

SUBJECT:      OlG Draft Report: "Sunset Park Health Council Did Not Always Claim Recovery
              Act Costs in Accordance with Federal Requirements" (A-02-11 -02018)

Attached is the Health Resources and Services Administration's (HRSA) response to the OIG's
draft report, "Sunset Park Health Council Did Not Always Claim Recovery Act Costs in
Accordance with Federal Requirements" (A-02-11-02018). If you have any questions, please
contact Sandy Seaton in HRSA's Office of Federal Assistance Management at (301) 443-2432.



                                         ~v.- .'L ,{-~~
                                           Mary K. Wakefield, Ph.D., R.N.

Attachment
                                                                                                  Page 2 of 2





  Health Resources and Services Administration's Comments on the OIG Draft Report ­
  "Sunset Park Health Counc.il Did Not Always Claim Recovery Act Costs in Accordance
                     With Federal Requirements" (A-02-11-02018)


The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRSA's response to the Office oflnspector General (OIG)
recommendations are as follows:

OIG Recommendation:
We recommend that HRSA require Sunset Park to refund $904,855 to the Federal Government
or work with Sunset Park to determine whether any of these costs that it claimed against one of
its IDS grants (grant number H8BCS12379) were allowable.

HRSA Response:
HRSA concurs with OIG's recommendation and will work with Sunset Park to determine the
amount of unallowable costs charged against the HRSA grants.

OIG Recommendation:
We recommend that HRSA educate Sunset Park officials on Federal requirements for supporting
salaries and wages and ensure that Sunset Park maintains personnel activity reports for each
employee who works on Federal awards.

HRSA Response:
HRSA concurs with OIG' s recommendation and will ensure that Sunset Park maintains
personnel activity reports for each employee who works on federal awards.
